No. 20-740

IN THE
SUPREME COURT OF THE UNITED STATES
JIM BOGNET, et al.,

Petitioners,
VS.

VERONICA DEGRAFFENREID, in her capacity as
Acting Secretary of the Commonwealth of Pennsylvania;
WASHINGTON COUNTY BOARD OF ELECTIONS; et al.,

Respondents.

On Petition for Writ of Certiorari
To the United States Court of Appeals for the Third Circuit

 

CERTIFICATE OF WORD COUNT
I certify that the Respondent, Washington County Board of Elections’ Brief in Opposition was
prepared using Times New Roman 12-point typeface and contains 1,280 words. This certificate

was prepared in reliance on the word-count function of Microsoft Word, the word processing
system used to prepare the Brief in Opposition.

I declare under penalty of perjury that the foregoing is true and correct.

Executed this 15" day of March, 2021.
Respectfully submitted,

SWARTZ CAMPBELL, LLC

By: Lita

Robert J. Grimm, Esquire
PA Supreme Court ID.: 55381
Koppers Building, Floors 7 and 8
436 7" Avenue

Pittsburgh, PA 15219

(412) 560-3267
rgrimm@swartzcampbell.com
Attorneys for the Respondent,
Washington County

Board of Elections
